No. 20-380
IN THE

~upreme Qt:ourt of tbe ffintteb ~tat~
ID ENIX PHARMACEUTICALSLLC AND UNIVERSITA
DEGLI STUD! DI CAGLIARI,

Petitioners,
v.
GILEAD SCIENCES, INC.,

Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33. l(h), I hereby certify that the Reply in
Support of Certiorari in Idenix Pharmaceuticals LLC and Universita Degli Studi di

Cagliari v. Gilead Sciences, Inc., No. 20-380, complies with the word limitations, as
it contains 3,000 words.
I declare under penalty of perjury that the foregoing is true and correct.

Date: December 30, 2020

